<html>
<title> - STUMBLING ONTO SMUT: THE ALARMING EASE OF ACCESS TO PORNOGRAPHY ON PEER-TO-PEER NETWORKS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
  STUMBLING ONTO SMUT: THE ALARMING EASE OF ACCESS TO PORNOGRAPHY ON 
                         PEER-TO-PEER NETWORKS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 13, 2003

                               __________

                            Serial No. 108-8

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform








                       U. S. GOVERNMENT PRINTING OFFICE
87-066                         WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
JOHN SULLIVAN, Oklahoma              C.A. ``DUTCH'' RUPPERSBERGER, 
NATHAN DEAL, Georgia                     Maryland
CANDICE S. MILLER, Michigan          ELEANOR HOLMES NORTON, District of 
TIM MURPHY, Pennsylvania                 Columbia
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN R. CARTER, Texas                CHRIS BELL, Texas
WILLIAM J. JANKLOW, South Dakota                 ------
MARSHA BLACKBURN, Tennessee          BERNARD SANDERS, Vermont 
                                         (Independent)

                       Peter Sirh, Staff Director
                 Melissa Wojciak, Deputy Staff Director
              Randy Kaplan, Senior Counsel/Parliamentarian
                       Teresa Austin, Chief Clerk
              Philip M. Schiliro, Minority Staff Director






                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 13, 2003...................................     1
Statement of:
    Koontz, Linda, Director, Information Management Issues, U.S. 
      General Accounting Office; John M. Netherland, Acting 
      Director, CyberSmuggling Center, Bureau of Immigration and 
      Customs Enforcement, Department of Homeland Security; Randy 
      Saaf, president, MediaDefender, Inc.; Daniel Rung, chief 
      executive officer, Grokster, Ltd.; and Patricia Greenfield, 
      department of psychology, University of California at Los 
      Angeles....................................................    25
    Shelley, Mistress, ninth grade, and Master Rob, tenth grade..    12
Letters, statements, etc., submitted for the record by:
    Davis, Hon. Tom, a Representative in Congress from the State 
      of Virginia, prepared statement of.........................     3
    Greenfield, Patricia, department of psychology, University of 
      California at Los Angeles, prepared statement of...........    70
    Koontz, Linda, Director, Information Management Issues, U.S. 
      General Accounting Office, prepared statement of...........    27
    Netherland, John M., Acting Director, CyberSmuggling Center, 
      Bureau of Immigration and Customs Enforcement, Department 
      of Homeland Security, prepared statement of................    51
    Rob, Master, tenth grade, prepared statement of..............    18
    Rung, Daniel, chief executive officer, Grokster, Ltd., 
      prepared statement of......................................    64
    Saaf, Randy, president, MediaDefender, Inc., prepared 
      statement of...............................................    58
    Shelley, Mistress, ninth grade, prepared statement of........    14
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California:
        Charts from the Internet.................................    22
        Prepared statement of....................................     9


  STUMBLING ONTO SMUT: THE ALARMING EASE OF ACCESS TO PORNOGRAPHY ON 
                         PEER-TO-PEER NETWORKS

                              ----------                              


                        THURSDAY, MARCH 13, 2003

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., in room 
2154, Rayburn House Office Building, Hon. Tom Davis (chairman 
of the committee) presiding.
    Present: Representatives Tom Davis, Waxman, Janklow, 
Miller, McHugh, Putnam, Tierney, Shays, Turner, Ruppersberger, 
Duncan, Kucinich, Cummings, Maloney, and Van Hollen.
    Staff present: Peter Sirh, staff director; Melissa Wojciak, 
deputy staff director; Keith Ausbrook, chief counsel; Randall 
Kaplan, counsel; David Marin, director of communications; Scott 
Kopple, deputy director of communications; Drew Crockett, 
professional staff member; Teresa Austin, chief clerk; Joshua 
E. Gillespie, deputy clerk; Nancy Scola and David McMillen, 
minority professional staff members; and Jean Gosa, minority 
assistant clerk.
    Chairman Tom Davis. Good morning, a quorum being present, 
the Committee on Government Reform will come to order. We are 
here today to examine a growing problem for parents across the 
country: the ease with which children can access pornography, 
including child pornography, through file sharing programs on 
peer-to-peer computer networks.
    Peer-to-peer networks are Internet programs that allow 
users to access each other's computer files. Typically, people 
use these programs to share music, images, and video.
    This technology is booming in popularity. At any given 
time, millions of people around the world are sharing their 
files. Napster, one of the first file sharing programs, had 1.6 
million people exchanging music files, before being shut down 
by court order because of copyright violations.
    Newer file sharing programs have become even more popular. 
KaZaA, one of the more popular networks, has been downloaded 
more than 199 million times, with 4 million users searching and 
sharing files at any given time.
    Unlike Napster, these newer programs allow users to 
download videos and pictures, in addition to music files, and 
they do not operate through central servers. Without a central 
on-line hub acting as a filter, children can receive images and 
solicitations that normally would be blocked. In addition, the 
programs are easy to install, and the electronic files can be 
downloaded free of charge.
    This leads us to the problem we are here to examine today. 
These networks have become an increasingly popular mechanism 
for the trafficking of very graphic pornography, including 
child pornography. We will hear startling testimony today about 
this problem.
    At the request of Congressman Waxman and myself, the 
General Accounting Office conducted a study which found that 
child pornography is easily accessible on peer-to-peer 
networks.
    Searches for child pornography by the GAO and the Customers 
Services on file sharing programs produced hundreds of 
pornographic images, more than half of which was child 
pornography and graphic adult pornography.
    Also, research performed by MediaDefender, another of our 
witnesses, found that nearly 6 million pornography files were 
available for downloading on one popular peer-to-peer network 
in a recent 2-day period.
    These findings are very disturbing, especially because file 
sharing programs are becoming increasingly popular with kids. 
Research has shown that more than 40 percent of the people who 
download files from file sharing programs are under the age of 
18; and many of these pornographic images are appearing on our 
children's computer screens--whether they ask for it or not.
    Seemingly innocent searches for files using the names of 
popular cartoon characters, singers, and actors produce 
thousands of graphic pornographic imagines, including child 
pornography.
    I want to commend Congressman Waxman for bringing this 
important issue to our attention. We need to alert parents to 
this problem and discuss what they and we can do about it. 
Research performed by the committee staff has found that many 
of the tools available to parents to prevent access to 
pornography on peer-to-peer networks are ineffective. Many of 
the filtering devices within file sharing programs have 
limitations, as well.
    So what is a parent to do? The current dynamic leaves 
parents in an untenable position; either watch over your 
child's shoulder every second while he or she is at the 
computer, or deny them use, or run the risk of exposure to this 
disgraceful material.
    The alarming ease of inadvertent, unsolicited access to 
pornography on these networks threatens our children, period. 
We are not talking about bad language or simple bad taste. We 
are talking about ugly, graphic imagines that have no place in 
our homes, and that does not even include the child pornography 
that is just plain illegal.
    Today we will be releasing two reports: one by the General 
Accounting Office and another committee staff report. These 
reports detail the problems of pornography on peer-to-peer 
networks and evaluate the effectiveness of parental control 
devices. I would like to thank all of our witnesses for 
appearing today, and I look forward to their testimony.
    [The prepared statement of Chairman Tom Davis follows:]
    [GRAPHIC] [TIFF OMITTED] 87066.001
    
    [GRAPHIC] [TIFF OMITTED] 87066.002
    
    [GRAPHIC] [TIFF OMITTED] 87066.003
    
    Chairman Tom Davis. I would now like to yield to Mr. Waxman 
for an opening statement. I understand that, Mr. Waxman, at the 
conclusion of our first set of witnesses, is going to walk us 
through a demonstration of how a file sharing program works, 
and how easy it is to access pornography using these programs. 
Mr. Waxman, thank you very much.
    Mr. Waxman. Thank you, Mr. Chairman; I am pleased to join 
with you in this hearing today to draw attention to Internet 
technology that gives kids easy access to incredibly graphic 
pornography.
    I am on the dias because I am a Congressman, but I do not 
want to speak as a public official. I want to speak as a parent 
and a grandparent. I want to speak about how difficult it is to 
raise a child today, and to raise some of these new issues that 
families must begin to consider.
    We have two reports that we are issuing today on Internet 
file sharing programs: one from the General Accounting Office, 
and the other was prepared by our investigative staff.
    What is in these reports should concern every parent in 
America. There is a new technology. It is widely available, and 
it allows teenagers to download ``x'' rated videos directly 
into their home computers. The most popular of these programs 
is KaZaA, which has been downloaded nearly 200 million times.
    Other popular programs include Morpheus, BearShare, and 
Grokster. At any given time, there are millions of teenagers 
between the ages of 12 and 18 using these programs.
    Now most adults I have talked to have never even heard of 
any of these file sharing programs. I certainly had never heard 
about it before it was brought to my attention by Robbie 
Barnett, whose father is the counsel on the Democratic side of 
this committee. He is our chief counsel of the Democratic side 
of the Government Reform Committee.
    Robbie told his father about these Web sites, and I am 
pleased that Robbie is here to testify about it, before all of 
us. I am also pleased and want to welcome our chairman's 
daughter, Shelley, who is also going to be talking about this 
issue.
    We are going to hear from both of them about how young 
people are being exposed to pornography that is being foisted 
upon them, as they go on to these file sharing sites.
    I know that many people hear about these issues with regard 
to the entertainment industry, because they threaten 
copyrights, and I certainly care a lot about that issue, 
representing Hollywood.
    But this hearing today is not about that issue. It is not 
about recording company profits or freedom on the Internet. It 
is about something more basic: how to raise children safely in 
today's digital age.
    We ask the company, MediaDefender, to assess how much 
pornography is available to teenagers when they log on the 
Internet with KaZaA or other file sharing programs and what we 
learned was astounding. At any given time, as the chairman also 
mentioned, there are 6 million pornographic files available to 
kids to download. All of these files can be downloaded 
completely free of charge, directly to any computer that is 
connected to the Internet.
    And if your child has access to a broadband connection, the 
most hard care, triple-x videos imaginable can be downloaded in 
just a few minutes.
    Imagine if there was a library that held 6 million 
pornographic videos and magazines. No parent would allow their 
children to wander at will through its collections. But this is 
exactly what can happen every day, in millions of homes across 
American. Whenever a tech-savvy teenager logs on to programs 
like KaZaA, he or she has access to millions of hardcore 
pornographic files.
    But it is even worse than this. As GAO has pointed out in 
their report, kids will be bombarded with pornography, even if 
they are not looking for it. GAO did searches for popular 
entertainment figures, like Britney Spears and the Olsen twins; 
and for cartoon characters like Pokemon.
    What they found was that more than half of the files they 
retried were pornographic. In fact, they even retried files 
that contained illegal child pornography.
    Now parents may think they are doing something about this 
problem, when they put in these parental control software 
programs, like Net Nanny or CyberPatrol. They think they can 
protect their children from this pornography.
    But our investigation also found that while these programs 
might work to keep kids from pornography on the worldwide Web; 
they do not work in the same way for file sharing programs. 
There are some programs that can be configured, after some 
effort, to block access to all file sharing programs.
    But there is really nothing that works effectively in 
filtering out pornographic files, once a child has access to 
these programs.
    Now as legislators, we are always thinking about passing 
the law. But I am not sure there is a legislative solution to 
this program.
    In this case, parental awareness, parental involvement 
matter more than legislation. Parents need to better understand 
these file sharing programs, and know if their kids are using 
them. Parents need to talk to their children about what to do 
when they come across this pornography. In short, we have to 
close the on-line generation gap.
    To help parents meet this challenge, Chairman Davis and I 
have put together some straight-forward recommendations that we 
will be distributing today. These recommendations will also be 
available on our Web site.
    I want to make clear that technical innovation on the 
Internet is tremendously important. When we discuss problems 
and challenges with computers in the Internet, we need to keep 
in mind that these technologies afford us many opportunities, 
and can be a great research to our children.
    We should be aware that in trying to help children deal 
with the challenges of our times, we must not stifle the sort 
of innovations that have made the Internet and computers such 
powerful tools. But we also must make sure that the experiences 
on the Internet are safe ones.
    I thank Chairman Davis for holding this hearing. It is an 
important one to get this issue out to people who otherwise 
might not know about it, which is probably the case for 90 
percent of the parents in this country.
    [The prepared statement of Hon. Henry A. Waxman follows:]
    [GRAPHIC] [TIFF OMITTED] 87066.004
    
    [GRAPHIC] [TIFF OMITTED] 87066.005
    
    Chairman Tom Davis. Mr. Waxman, thank you very much; and 
thank you very much for your leadership on this.
    Are there any other opening statements? Mr. Janklow.
    Mr. Janklow. Mr. Chairman, thank you very, very much for 
convening this particular hearing. Mr. Chairman, in my previous 
capacity as Governor of South Dakota, we convened the first 
Statewide conference in the Nation, back in 2001, to deal with 
this issue.
    Let me, if I can, give you some additional statistics to 
add to what it is; and material that you and Mr. Waxman so 
graciously have provided.
    We all know that if you go to whitehouse.com, you are going 
to get the wrong thing. You are going to get a pornography 
site. Parents cannot deal with this. Parents cannot fix this. 
These are accidental things.
    If you go to playstation.com, you are going to get a kids' 
station. If you make a mistake and hit an ``m'' instead of an 
``n''. You are going to go a pornographic site.
    So if you to crazyhorse.org, you are going to get the Crazy 
Horse memorial. If you go to crazyhorse.com, you are going to 
get a pornographic site.
    These pornographic sites have cookies in them, which then 
make it so that you cannot get them off your screen. The more 
you try and delete them, they more they are added to the 
scenery.
    As a matter of fact, back in 2001, the Federal Trade 
Commission, in 2 weeks, shut down 5,500 sites that were called 
copycat sites, where people were able to mistakenly get onto 
these things.
    You talk about the cartoon network. If you hit 
cartoonnetwork.com and make a mistake in the spelling, there 
are 15 different derivatives of that, that will give you a 
pornographic site for children that they cannot get off of 
their computers.
    There are 41 variations of Britney Spears' spelling. Only 
the accurate spelling of Britney Spears will get you into a 
good site. All the rest of them will get you into a 
pornographic site, that children will get their hands on.
    If you talk about how many sites there are, in 2001, 
according to google.com, there were 1.4 billion registered 
domains; 168 million, approximately 12 percent were 
pornographic sites; 12 percent of 1.4 billionsites. That is 
about 168 million pornographic sites in the world for children.
    According to a study done by the University of New 
Hampshire of students age 10 to 17, 20 percent of these 
students that were surveyed by the University of New Hampshire, 
these students had received unwanted sexual solicitations 
during the previous year.
    Three percent had been actually asked to meet off line, had 
been called on the telephone, or sent money or gifts by a male, 
which are called aggressive solicitations.
    Also, according to that survey, 97 percent of the 
solicitors were strangers; but something more important, only 
10 percent of the students indicated that they had ever told 
their parents or teachers about having been contacted on these 
sites.
    In addition to that, the sexual solicitations, one of the 
things we have to recognize, we all argue about the first 
amendment. Seventy percent of these solicitations of these 
students, according to the University of New Hampshire's 
survey, were done at home. They were not done in school and 
they were not done in libraries.
    But I also submit, Mr. Chairman, the first amendment was 
never written to take care of predators. It was never written 
to allow anybody to prey on our children.
    Also, if you look at what we need to do, we need to do 
something, in a legislative sense, to get these people away 
from computers, to scoop them off the street. Where we have 
mountain lions that attack people, where we have grizzly bears 
that attack people, we deal with them.
    These predators are worse than an animal. An animal will 
just kill you. These predators will prey on people and destroy 
them as human beings.
    So Mr. Chairman, I thank you for convening this meeting. 
This is something that is incredibly important, and it is a far 
bigger problem than any of us can imagine. You stumble onto 
these sites. You cannot get off of them.
    Once children start being subjected to these kinds of 
things, it is a very, very quick maneuver to get them to the 
point where they continue moving forward with it. Thank you 
very much.
    Chairman Tom Davis. Thank you very much; well, if there are 
no other statements, will move to our first panel of witnesses. 
We have Shelley, a 9th grader, and Robert, a 10th grader, who 
will discuss their experiences with these file sharing 
programs.
    It is the committee's policy, the ladies go first, Robert; 
so Shelley?

  STATEMENT OF MISTRESS SHELLEY, NINTH GRADE, AND MASTER ROB, 
                          TENTH GRADE

    Mistress Shelley. Mr. Chairman, Ranking Member Waxman, and 
members of the committee, thank you for allowing me to be here 
today to discuss problems related with Internet file sharing 
programs.
    I am a 15 year old ninth grader from Falls Church, VA. Kids 
my age across the country are using file sharing programs to 
retrieve a variety of items. I, personally, have many friends 
who use programs like KaZaA and Grokster.
    These programs are easily accessible and not complicated. 
All you do is log onto the Internet, go to the program Web 
site, and download the program, which does not take very long.
    Once you have the program on your computer, it is very 
simple to search and share files; and the file sharing is free 
of charge and downloads in a matter of seconds.
    Many of my friends use programs like KaZaA. When they 
search for materials by specific singers or actors, they are 
often surprised with their results. For example, when you type 
in Britney Spears, some files with her name come up. However, 
some of the file names that come up contain pornographic 
language; language that I would rather not repeat before the 
committee.
    The vast majority of files that appear have pornographic 
language and, if downloaded, become visuals. Most of the 
descriptions suggest that the file is not related to the 
search, Britney Spears, at all.
    My friends are very uncomfortable and apprehensive about 
using these programs. They can be very scary. Minimal effort is 
required to find this kind of pornography. Among teenagers and 
kids, this is a widespread situation.
    Although this is a big problem for kids my age, my main 
concern is for the younger children. You have to work very, 
very hard not to get pornography when you use these programs. 
Without proper parental supervision, young kids can be exposed 
to this harmful material at a very young age.
    I thank you for allowing me to give my views on this very 
important topic, and hope you take my words into consideration, 
thank you.
    [The prepared statement of Mistress Shelley follows:]
    [GRAPHIC] [TIFF OMITTED] 87066.006
    
    [GRAPHIC] [TIFF OMITTED] 87066.007
    
    [GRAPHIC] [TIFF OMITTED] 87066.008
    
    Chairman Tom Davis. Thank you very much.
    Rob, thanks for being with us.
    Master Rob. Good morning and thank you, Mr. Chairman, 
Congressman Waxman, and the rest of the Members here today. I 
am here to share with you a kids' perspective on file sharing 
programs.
    In the past few years, the popularity of file sharing 
programs has increased dramatically. A major group of users 
consists of high school students, such as myself, and it is not 
hard to see why.
    Rather than spending $16, $18, or even $20 on a CD, any 
teenager with access to the Internet can type in a few words 
and download any song, free of charge. This simple action saves 
both time and money. Unfortunately, there are many problems 
with these file sharing programs.
    I know that record companies worry about copyright issues, 
but most kids are not too concerned about that. A real problem, 
though, is the fact that file sharing programs provide easy 
access to illegal pornography.
    Even worse, much of this pornography is deceptively shared 
under the names of popular singers or actors. A child searching 
for a song or a movie is likely to stumble upon imagines or 
videos of a pornographic nature. Most people using file sharing 
programs have probably stumbled upon pornographic files at one 
time or another.
    Even if your computer has a parental control program 
installed, it probably will not work. For the most part, file 
sharing programs go unnoticed, both by parental control 
programs and by parents themselves.
    Most kids are aware of these problems, and have learned to 
deal with them by filtering their searches or skipping over 
pornographic material. However, many parents do not realize the 
prevalence of pornography on file sharing programs, and are 
understandably surprised when they learn that their teenager 
may have been exposed to inappropriate material.
    It is important that we bring this issue into the public 
conscience, so that parents can discuss these issues with their 
teenagers. In order to protect teens from viewing illicit 
material, the ease of access to pornography on file sharing 
networks must be addressed; thank you.
    [The prepared statement of Master Rob follows:]
    [GRAPHIC] [TIFF OMITTED] 87066.009
    
    Chairman Tom Davis. Well, thank you very much. I know you 
are both eager to get back to school. [Laughter.]
    Let me just ask each of you, do you think more parental 
supervision is needed when kids are using these services?
    Mistress Shelley. Yes, I do. Parents need to be aware and 
more involved with their child's use of the Internet, 
especially file sharing software.
    Chairman Tom Davis. Rob.
    Master Rob. I do. It is important that parents are aware of 
this problem, and that they watch their kids, to make sure that 
their kids are not looking at anything they should not be 
looking at.
    Chairman Tom Davis. Well, let me just say for the record, I 
just only became aware of the nature of the seriousness of this 
as we were preparing for this hearing. I would just say, as a 
concerned parent, I want to do everything I can to remove the 
file sharing from computers that our kids use.
    This is really very alarming to me, as a parent who thought 
he was tech-savvy on this kind of thing, to see how far this 
has gone.
    Mr. Waxman, do you have some questions?
    Mr. Waxman. Well, thank you, Mr. Chairman; and thank you 
both for your testimony. We often hear from witnesses who have 
represented different organizations or trade associations or 
economic interests. They come in with their prepared testimony, 
screened by their lawyers and very carefully calculated, and 
they get some legislation across.
    But the two of you have given us a perspective that we do 
not usually see, and that is from two young people, who know 
more about using the Internet than most adults.
    Let me just ask you a technical question, because parents 
get these screening mechanisms to stop their kids from going on 
certain Internet sites.
    What is the difference between the Internet site and file 
sharing? Will those filters not stop any transmission of 
pornography to a young person on the Internet? Rob, do you want 
to talk about that?
    Master Rob. Well, the filters are designed to stop the 
Internet sites. Since this problem on file sharing programs is 
relatively new and they have not been around for too long, the 
programs probably are not designed to handle these kind of 
programs.
    Mr. Waxman. So if a parent bought software to put in to 
block their kids from getting any pornography off an Internet 
site; for instance, our colleague, Mr. Janklow, went to a 
number of Internet sites that might lead to pornography; so 
parents could block those.
    But if the kids were using file sharing to get music, they 
get bombarded with pornography and that is not blocked. Is that 
what you are telling us?
    Master Rob. Yes, most programs do not block these file 
sharing programs. I am sure some do, but not all of them.
    Mr. Waxman. Shelley, most of us have never heard about this 
problem. I did recently, but for most of us, it has been very, 
very recent.
    Do most of your friends, most of the kids in school, know 
about all of this?
    Mistress Shelley. Yes, I was one of the last actually, of 
my friends, to know about this. All my friends have been doing 
it for quite some time. [Laughter.]
    Mr. Waxman. And did you tell your parents immediately? 
[Laughter.]
    Chairman Tom Davis. I think it was last night. I think I 
can say that, because I was telling her about the hearing. 
[Laughter.]
    Mr. Waxman. Well, I think it is important for parents to 
know. They think they know a lot, but kids know things that we 
never even imagined, and that is why we have to, as parents, 
and in my case, grandparent, talk to our youngsters about what 
is going on; what is new; and try to search what they are being 
exposed to that we never would have even imagined, such a short 
time ago.
    Thank you, Mr. Chairman, and I thank you both of you for 
being here.
    Chairman Tom Davis. Thank you very much.
    I know they need to get back, but Mr. Shays, I know you 
wanted to ask one quick question.
    Mr. Shays. Yes, I have just a very quick question.
    I voted against, and I probably made a mistake, the whole 
issue of the V-chip, as it related to TV. This is designed so 
that parents can make sure their kids do not watch certain TV 
programs. But my logic was that the parent had to ask the child 
how to set the TV, so that the kid could not watch it.
    I want to ask you, Shelley, do you think that young people 
know the Internet and know tech issues better than their 
parents?
    Mistress Shelley. Yes. [Laughter.]
    Definitely; I am always helping my mom or dad with the 
computer. So if there was a program that they had to set up for 
their children, their children would be the ones setting it up, 
in most cases.
    Chairman Tom Davis. Chris, we are going somewhere I do not 
think we need to go. [Laughter.]
    Mr. Shays. Thank you; I have no more questions.
    Chairman Tom Davis. Thank you; we are going to do a 
demonstration now with Mr. Waxman, and I am going to ask the 
witnesses to leave the room. But let me just say to both of 
you, thank you very much. You have contributed a lot to our 
understanding of this; thank you very much.
    [Applause.]
    Chairman Tom Davis. Mr. Waxman.
    Mr. Waxman. Well, Mr. Chairman, as part of helping parents 
learn more about these programs, we have arranged for a 
demonstration of how these programs work.
    Before we start this demonstration, I want to warn the 
members and the audience that even the names of the files can 
contain offensive and pornographic images.
    We are going to show the unredacted names on the screens in 
the room, because that is what our children are actually 
seeing. But we also have posters up that display the results in 
a redacted form, for those who find this less offensive.
    So without viewing the sites themselves, let us just see 
what kids see when they have this pornography pushed upon them.
    Ms. Scola. Thank you, Chairman Davis and Congressman 
Waxman. I am going to be showing you today how easy it is to 
download these file sharing programs and to use them. The most 
popular of these programs is KaZaA, and I will be downloading 
that program.
    You can just go to any Internet browser, as long as you 
have an Internet connection set up. Go to a search engine and 
type in KaZaA. The first site pops up. Click on it. That brings 
you to the KaZaA Web site. Click on download now. This is free 
software. It requires no personal information.
    Since we are on a dial-up connection here today, I am going 
to skip over the actual download part. It would take too long.
    Once the software is installed on your desktop, you double 
click. That brings up a search field. You type in, let us say, 
Britney Spears, and it will search for images of Britney 
Spears. Veryquickly, this is what you get.
    I know it is difficult to see, so we did some searches 
yesterday. I am going to zoom in on the results. These are the 
first several results you get for searching for Britney Spears.
    If you search for Olsen twins, teenage actresses, this is 
what you get; and if you search for Pokemon, the cartoon 
character, this is what you get.
    Chairman Tom Davis. The graphics are far worse, I assume. 
The graphics then that you get when you download are far worse, 
the language.
    Ms. Scola. Yes.
    Mr. Waxman. Well, Mr. Chairman, what we see is a menu then 
offered that, just looking at the titles of the menu, is pretty 
disgusting, in and of itself. But if you then clicked on any of 
these items, kids would immediately be led to a pornographic 
site.
    I want to thank Nancy Scola, who is a professional staff 
member from the committee, who has worked on this investigation 
and other investigations for her presentation to us. It 
illustrates how simple it is, and how readily available it is 
for kids who might admire Britney Spears to be led to be 
confronted with a pretty raw kind of pornography.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 87066.010
    
    [GRAPHIC] [TIFF OMITTED] 87066.011
    
    [GRAPHIC] [TIFF OMITTED] 87066.012
    
    Chairman Tom Davis. Mr. Waxman, let me also say, my 
understanding, in talking to some of the kids that use this is, 
some of the things that appear innocuous, in terms of their 
description when you download them are, in fact, way over the 
line. There is no warning whatsoever. They think they are 
downloading something that is decent and it is not; so thank 
you very much.
    Let me move to our second panel now. I would like to thank 
our witnesses for appearing today. We have Linda Koontz from 
the General Accounting Office; John Netherland, from the 
Department of Homeland Security's Bureau of Immigration and 
Customs Enforcement; Randy Saaf, of MediaDefender; Daniel Rung 
from the file sharing company, Grokster; and Dr. Patricia 
Greenfield from UCLA's Department of Psychology.
    It is the policy of the committee that all witnesses be 
sworn before they testify. If you will just stand with me and 
raise your right hands.
    [Witnesses sworn.]
    Chairman Tom Davis. Thank you all for being here with us 
today. In order to allow time for more questions and 
discussion, if you could limit your testimony to 5 minutes. 
Your written statements are going to be in the record.
    I think, for the most part, we have read the statements, 
and we already have some questions in mind. But it would be 
helpful, I think, for everybody to take about 5 minutes and sum 
up.
    You have a light there in front that when the green is on, 
you keep going; when it is orange, that means you have a minute 
to sum up; and when it is red, your 5 minutes are up, if you 
could try to sum up. That way, we can get through it quickly 
and get to the questions.
    Thank you very much, and let us start with Ms. Koontz. 
Thank you very much for being here.

 STATEMENTS OF LINDA KOONTZ, DIRECTOR, INFORMATION MANAGEMENT 
  ISSUES, U.S. GENERAL ACCOUNTING OFFICE; JOHN M. NETHERLAND, 
 ACTING DIRECTOR, CYBERSMUGGLING CENTER, BUREAU OF IMMIGRATION 
AND CUSTOMS ENFORCEMENT, DEPARTMENT OF HOMELAND SECURITY; RANDY 
   SAAF, PRESIDENT, MEDIADEFENDER, INC.; DANIEL RUNG, CHIEF 
  EXECUTIVE OFFICER, GROKSTER, LTD.; AND PATRICIA GREENFIELD, 
   DEPARTMENT OF PSYCHOLOGY, UNIVERSITY OF CALIFORNIA AT LOS 
                            ANGELES

    Ms. Koontz. Mr. Chairman, members of the committee, thank 
you very much for having us here to discuss the results of our 
work on the availability of child pornography on peer-to-peer 
networks. We have provided the results of our work to you today 
in a report that is being released.
    To summarize, I would like to provide a little more 
background on peer-to-peer networks, and also discuss the ease 
of access to child pornography and peer-to-peer networks; the 
risk of inadvertent exposure of juvenile users to pornography; 
including child pornography on these networks; and the extent 
of Federal law enforcement resources available for this effort.
    To build a little bit on what we have discussed earlier, 
our first chart shows the two main types of peer-to-peer 
networks. On the left, it shows the centralized network, where 
there is a central server or broker that maintains a directory 
of all the shared files that the users have, and directs 
traffic between those users.
    The centralized model was employed by Napster, which was 
the original peer-to-peer network. Because much of the material 
traded on that network was copyrighted, Napster, as the broker 
of these exchanges, was vulnerable to legal challenge, and this 
eventually led to their demise late last year.
    On the right side of the chart, we had the de-centralized 
model, which is what the most popular peer-to-peer networks are 
now using. In this model, the users are enabled to directly 
locate each other and interact.
    On our next slide, we found that child pornography, as well 
as other types of pornography, are widely available and 
accessible through peer-to-peer networks. We use KaZaA, a very 
popular file sharing program to search for image files using 12 
key words that are known to be associated with child 
pornography on the Internet.
    As shown in our chart of over 1,200 items we identified, 
about 42 percent of the file names were associated with child 
pornography, and about 34 percent were associated with adult 
pornography.
    On the next slide, we show another KaZaA search, where we 
worked with the Customs CyberSmuggling Center, to use three key 
words to search for and download child pornography images.
    As you can see on this chart, this search identified 341 
files, and about 44 percent of these were classified as child 
pornography, and about 29 percent as adult pornography.
    I think more disturbing, however, was that we found that 
there is a significant risk that juvenile users of peer-to-peer 
networks can be inadvertently exposed to pornography, including 
child pornography in using these networks.
    In searches, again, on KaZaA, using three innocuous search 
terms, that would likely be used by juveniles, we found that of 
the files that were returned, almost 50 percent of them were 
pornography, including a small amount of child pornography.
    In regard to resources, we were not able to specifically 
quantify the amount of law enforcement resources that are 
devoted to peer-to-peer networks, because largely Federal law 
enforcement agencies do not track their resources by the 
specific Internet technologies.
    However, these agencies indicated that as the tips are 
increasing in this area, they are increasing their efforts and 
their resources that are allocated to it.
    That concludes my statement. I would be happy to answer 
questions at the end of the panel.
    [The prepared statement of Ms. Koontz follows:]
    [GRAPHIC] [TIFF OMITTED] 87066.013
    
    [GRAPHIC] [TIFF OMITTED] 87066.014
    
    [GRAPHIC] [TIFF OMITTED] 87066.015
    
    [GRAPHIC] [TIFF OMITTED] 87066.016
    
    [GRAPHIC] [TIFF OMITTED] 87066.017
    
    [GRAPHIC] [TIFF OMITTED] 87066.018
    
    [GRAPHIC] [TIFF OMITTED] 87066.019
    
    [GRAPHIC] [TIFF OMITTED] 87066.020
    
    [GRAPHIC] [TIFF OMITTED] 87066.021
    
    [GRAPHIC] [TIFF OMITTED] 87066.022
    
    [GRAPHIC] [TIFF OMITTED] 87066.023
    
    [GRAPHIC] [TIFF OMITTED] 87066.024
    
    [GRAPHIC] [TIFF OMITTED] 87066.025
    
    [GRAPHIC] [TIFF OMITTED] 87066.026
    
    [GRAPHIC] [TIFF OMITTED] 87066.027
    
    [GRAPHIC] [TIFF OMITTED] 87066.028
    
    [GRAPHIC] [TIFF OMITTED] 87066.029
    
    [GRAPHIC] [TIFF OMITTED] 87066.030
    
    [GRAPHIC] [TIFF OMITTED] 87066.031
    
    [GRAPHIC] [TIFF OMITTED] 87066.032
    
    [GRAPHIC] [TIFF OMITTED] 87066.033
    
    [GRAPHIC] [TIFF OMITTED] 87066.034
    
    Chairman Tom Davis. Thank you very much.
    Mr. Netherland.
    Mr. Netherland. Mr. Chairman and distinguished members of 
the committee, it is a privilege to appear before you today to 
discuss the CyberSmuggling Center's efforts to investigate 
child exploitation that is facilitated by the Internet.
    The CyberSmuggling Center, led by the Bureau of Immigration 
and Customs Enforcement, will continue to combat the sexual 
exploitation of children and the unfettered accessibility and 
illegal bartering of child pornography on the Internet via 
peer-to-peer file sharing networks.
    The peer-to-peer file sharing networks are but one more 
means by which pedophile predators ply their trade and 
victimize our children; and the CyberSmuggling Center is 
expanding its investigative efforts to encompass this new 
technology.
    The CyberSmuggling Center, located in Fairfax, VA, is 
recognized both nationally and internationally as a leader in 
the area of child exploitation investigations. The 
CyberSmuggling Center utilizes its resources and cutting edge 
technology as a means to protect our Nation's children from 
sexual abuse.
    We have had a number of great successes in identifying and 
apprehending pedophiles. Recent investigative successes 
include: Operation HAMLET, a global investigation that resulted 
in the complete dismantlement of a ring of pedophiles who were 
molesting their own children and posting the images on the 
Internet for worldwide consumption. Many of these pedophiles 
were parents.
    The CyberSmuggling Center, in its coordinating role, 
identified and rescued more than 100 children who were 
subjected to this torturous environment. The majority of these 
children were American citizens.
    Another example is Operation MANGO, which shut down an 
American-owned beach-side resort for pedophiles located in 
Acapulco, Mexico. The resort was a haven for pedophiles that 
traveled to the facility for the sole purpose of engaging in 
sex with minors.
    As a result of this investigation and others, the 
government of Mexico recently created a Federal task force to 
address crimes against children in their country.
    The CyberSmuggling Center's technological capabilities 
include the National Child Victim Identification Program, a 
dynamic one-of-kind information system that will eventually 
contain all known and unique child pornographic images. The 
primary goal of the program is to help law enforcement agencies 
throughout the world locate and rescue children who have been 
victimized for sexual purposes.
    This committee has asked that I address two specific 
concerns: one, the ease of access in transmission of child 
pornography on peer-to-peer file sharing networks; and two, the 
Bureau of Immigration and Customs Enforcement's efforts in 
tracking and investigating suspects that use this technology 
for criminal purposes. It was our privilege to assist the GAO 
in this study.
    Considering the fact that there are now more than 20 peer-
to-peer software applications available on the Internet, and 
that these applications are conducive to the unfettered 
transmission of images, both legitimate and illegal, the 
CyberSmuggling Center has taken the position that peer-to-peer 
networks do increase the likelihood of both intended and 
unintended exposure to child pornography.
    The investigative effort of the CyberSmuggling Center, 
while extensive and highly successful, have been geared to 
attack the problem of child exploitation on a reactive basis. 
This posture is dictated primarily as a result of the enormous 
volume of child pornography-related tips received and processed 
by the CyberSmuggling Center.
    The CyberSmuggling Center handles more than 1,500 tips per 
month. Each tip requires an initial review, resulting in a 
determination as to whether further investigation is warranted.
    If referred for investigation, then evidence must be 
gathered and a perpetrator identified. This is a time 
consuming, labor-intensive process. The majority of the 
CyberSmuggling Center's resources are dedicated to tip response 
activities.
    In contrast, the investigation of peer-to-peer networks can 
be classified as proactive in scope; that is, investigators 
with no prior information can actively enter publicly 
accessible file sharing networks, to detect illegal activity.
    Recognizing the potential use of peer-to-peer file sharing 
by pedophiles, the CyberSmuggling Center re-assigned an 
intelligence analyst to begin examining these types of cases in 
February 2002. Today, the CyberSmuggling Center has referred 
more than 20 leads to the field, resulting in several 
successful enforcement actions, including the arrest of a known 
child abuser.
    Although we have only scratched the surface, peer-to-peer 
file sharing networks have received and will continue to 
receive increased scrutiny by the CyberSmuggling Center. 
Searches can be tailored to reveal imagines of child 
pornography, prosecutorial venue can be claimed at either end 
of the transaction, evidence is easily captured and preserved 
on a real-time basis, and violators are readily identifiable by 
investigators with the requisite training and experience. For 
these reasons, peer-to-peer file sharing investigations are 
likely to increase.
    In conclusion, let me reiterate that while we must, by 
necessity, continue to focus the majority of our attention and 
resources on the voluminous tips generated by outside entities, 
the CyberSmuggling Center will continue to expand its 
investigative efforts in the area of peer-to-peer file sharing.
    I would like to thank the distinguished members of this 
committee for the opportunity to speak before you today, and I 
welcome the opportunity to answer any questions that you may 
have.
    [The prepared statement of Mr. Netherland follows:]
    [GRAPHIC] [TIFF OMITTED] 87066.035
    
    [GRAPHIC] [TIFF OMITTED] 87066.036
    
    [GRAPHIC] [TIFF OMITTED] 87066.037
    
    [GRAPHIC] [TIFF OMITTED] 87066.038
    
    [GRAPHIC] [TIFF OMITTED] 87066.039
    
    Chairman Tom Davis. Thank you very much.
    Mr. Saaf, thank you for being with us.
    Mr. Saaf. Thank you, Mr. Chairman, Congressman Waxman, and 
the rest of the committee. MediaDefender was founded in the 
summer of 2000, with the general business calling to fight 
Internet crime.
    The biggest area of Internet crime in the summer of 2000 
was obviously music piracy. That was because the peer-to-peer 
software program Napster only allowed the trading of music. You 
could not trade videos or images on that network. At the same 
time, there was a network that was created called the Gnutella 
Network, which was much smaller than Napster, but allowed the 
trading of all sorts of rich media files.
    We observed a lot of pornography going across that network. 
It was pretty much the only peer-to-peer network where you 
could get pornography at the time. We also saw an alarming 
quantity of child pornography being shared on that network.
    MediaDefender immediately called the FBI and the Department 
of Justice, and tried to alert the agencies to that fact. They 
received little attention.
    Today, KaZaA is the 800 pound gorilla of peer-to-peer 
networking with, as you have mentioned, over 200 million 
downloads to date. Most of the video files and pictures on 
KaZaA are adult in nature.
    There is the same child pornography problem that we 
observed in the summer of 2000, except it is 100,000 times 
larger now. There is 100,000 times the quantity of pornography 
and child pornography.
    Porn spreads like music on a peer-to-peer network. The 
files are large. There is a high demand for it, and the 
copyright law is easily avoided on the networks.
    MediaDefender took data from March 6th to March 10th of 
this month, to present some findings on child pornography on 
these networks. MediaDefender found 328,349 unique Internet 
addresses with files that appeared to be child pornography on 
them.
    We also found 321,153 unique files that appeared to be 
child pornography by their name and file type. There are 4 
million simultaneous users on the peer-to-peer networks at any 
one time approximately. The point is basically that there are a 
lot of users, and that all of them can get child pornography 
whenever they want.
    Peer-to-peer users tend to feel a guiltless sense of 
anonymity. I want to say here that they should not feel 
anonymity at all in these networks. These are open, public 
networks, and it is easy for a company like MediaDefender to 
find these perpetrators and introduce them to law enforcement 
officials.
    This is not like music, where law enforcement officials 
have been able to say, we cannot enforce the law against every 
single individual; there are too many. Child pornography is too 
dangerous for that.
    Already, as we have heard, law enforcement officials around 
the Nation have started to actually prosecute cases on the 
peer-to-peer network. It is a relatively straight-forward 
procedure. A company like MediaDefender can gather the evidence 
and hand it over to a law enforcement official, where they 
conduct a normal child investigation Internet pornography case.
    Just because it was easy and free to get the child 
pornography, that does not mean it gets to skirt the child 
pornography laws.
    We also took some statistics on businesses, schools, and 
Government institutions that have potential child pornography 
on their networks, and I would like to go over those now.
    This alarming trend of not caring about pornography on the 
networks can be seen in schools. We found over 800 universities 
in the Nation that had files on their networks that appear to 
be child pornography in nature.
    I do not know how many schools there are in the United 
States, but I can assure you that most of the big schools are 
on that list.
    I do not want to start naming names right now, but I will 
say that seven out of eight of the Ivy League schools had a 
combined total of over 190 computers that had files that 
appeared to be child pornography on their computers, sharing to 
the peer-to-peer network.
    Hundreds of large companies are in this list, as well. It 
could be very embarrassing. I suggest that colleges and 
businesses start taking a proactive approach to get the child 
pornography off their networks, or block the peer-to-peer 
networks altogether.
    The worst thing that MediaDefender found in its study was 
the government institutions that had child pornography on their 
networks; thousands of government computers with files that 
appear to be child pornography on them. It is ridiculous that 
Government resources could be used for something so unworthy as 
this.
    The three most notable and largest on the list that we 
found were NASA, Los Alamos National Laboratory, and the 
Department of Defense.
    What is very alarming about these is that they are secret 
or defense in nature; and what is really scary is, if 
pornography is accidently being shared on these networks, who 
knows what else is accidently being shared? Obviously, this is 
an information technology oversight.
    There are no magic technology solutions for fixing the 
problem of pornography or child pornography on the peer-to-peer 
networks. Filtering only mildly helps the problem. This stuff 
changes so fast, everybody gets around the filters. It is just 
too easy.
    There are 1 billion files in a constant state of flux on 
the peer-to-peer networks. You cannot identify what every file 
is.
    Porn and child pornography will be an ever present problem 
on the peer-to-peer network, just like music piracy is. Thank 
you.
    [The prepared statement of Mr. Saaf follows:]
    [GRAPHIC] [TIFF OMITTED] 87066.040
    
    [GRAPHIC] [TIFF OMITTED] 87066.041
    
    [GRAPHIC] [TIFF OMITTED] 87066.042
    
    [GRAPHIC] [TIFF OMITTED] 87066.043
    
    Chairman Tom Davis. Thank you very much.
    Mr. Rung.
    Mr. Rung. Good morning, Mr. Chairman and members of the 
committee, my name is Daniel Rung. I am the founder of 
Grokster, one of the more popular file sharing programs on the 
Internet today.
    I would like to thank you for inviting me to testify today 
on file sharing and pornography, and in particular, child 
pornography.
    The Internet is a communications tool that allows for the 
easy storage and virtually instantaneous transfer of all types 
of information, including pornographic material. The Internet 
pornographic industry is generally considered to be one of the 
most successful and widespread on the Internet. One could argue 
that pornography is ubiquitous on the Internet.
    One of the side effects of this ready availability of 
pornographic material is children's easy access to it, either 
intentionally or accidently.
    Before the development of peer-to-peer file sharing 
programs, pornography could be easily found on free and pay Web 
sites, news groups, FTP sites, and so on. Many fairly effective 
tools were then developed to allow users to filter out certain 
types of Internet content, including pornography. Then peer-to-
peer file sharing programs were developed and launched on the 
Internet.
    Although these file sharing programs were not designed with 
pornography in mind, today's file sharing programs provide a 
new avenue of access to this type of material. Since today file 
sharing programs have no control over the contents that users 
share with other users, it is easy for a child user to 
encounter such pornographic material.
    It has been estimated that as much as 50 percent of the 
files created through file sharing programs consist of 
pornographic material; and unfortunately, just like the rest of 
the Internet, some unknown amount of that is child pornography.
    In an attempt to allow users to filter out objectional 
material, many file sharing programs now have what we call bad 
word filters. These filters can be set to screen out much 
objectional material from the search results.
    Additionally, the providers of third party content 
filtering programs such as Net Nanny and Cybersitter have been 
successfully developing techniques to allow users to filter or 
block objectional material from file sharing programs.
    What, specifically, can parents do to keep this material 
from their children? First, educate your children, as 
appropriate for their age, to be aware that this type of 
material exists and what to do if they should encounter it.
    Second, supervise your children while they are using the 
Internet. Observe what Web sites they visit and what programs 
they are using.
    Third, consider restricting your children's level of user 
access on the computer. Using settings in the Windows operating 
system, parents can create a special account for each child 
called a restricted user account.
    This restricted user account has default settings that will 
block the child from installing any software on the computer, 
including peer-to-peer file sharing programs. I understand 
these restricted user accounts may also be customized to allow 
varying amounts of access to all the functions in the Windows 
operating system.
    Fourth, install and properly configure one of the numerous 
content filtering programs. Some can be said to filter or even 
block access to file sharing programs. Periodically, review the 
programs installed on the computer to ensure that they meet 
with your approval.
    Last, when installing any file sharing software, go through 
all of its settings, to ensure that they are set to block any 
objectionable material. Set up the password protection if it is 
available in that program. To summarize, educate, supervise, 
restrict, filter, and configure.
    As a parent and grandparent, I share this committee's 
concern with child pornographers and their customers. We at 
Grokster maintain a very clear and open policy in relation to 
child porn. We do not want child pornography on Grokster.
    We encourage users to report this type of material to the 
appropriate authorities. We have previously cooperated with law 
enforcement officers, and would gladly do so again to combat 
child pornography.
    Sadly, child pornography continues to be available through 
the Internet. There are already many existing laws that deal 
with child pornography. Using these laws, child pornographers 
and their customers can be brought to justice to stop their 
abuse of defenseless children.
    The law enforcement resources brought to bear on this 
problem to date seem to be too little. I urge the members of 
this committee to bring more law enforcement resources to bear 
on this continuing problem.
    Thank you for holding this important hearing, and I look 
forward to working with the committee on these issues in the 
future.
    [The prepared statement of Mr. Rung follows:]
    [GRAPHIC] [TIFF OMITTED] 87066.044
    
    [GRAPHIC] [TIFF OMITTED] 87066.045
    
    [GRAPHIC] [TIFF OMITTED] 87066.046
    
    Chairman Tom Davis. Mr. Rung, thank you, and thank you for 
being with us today.
    Mr. Rung. Thank you.
    Chairman Tom Davis. Dr. Greenfield.
    Ms. Greenfield. Mr. Chairman, Congressman Waxman, 
distinguished members of the committee, thank you very much for 
inviting me to speak to you today.
    My name is Dr. Patricia Greenfield. I am a developmental 
psychologist and professor in the Department of Psychology at 
UCLA. I currently direct the UCLA Children's Digital Media 
Center, under a grant from the National Science Foundation.
    I am a member of the National Academy of Science's Board on 
Children, Youth, and Families; and I participated in their 
workshop on non-technical strategies to reduce children's 
exposure to inappropriate material on the Internet.
    It is an honor to talk with you today about pornography on 
peer-to-peer file sharing networks, as it relates to child 
development and families. But before I speak on that subject, I 
want to add one technical word to the presentation so far.
    In our lab, in preparation for this, we did some tests of 
the internal filters that KaZaA provides. No. 1, they are 
password protected, so presumably a parent could keep a child 
from interfering, once they set them; and second, we found two 
of the three filters proved very successful. One filter, for 
example, allows you to filter out all images, and I think that 
works very, very well.
    So I want you to keep that in mind, because you could 
perhaps require these types of filter systems or strongly 
suggest them to be in all of these file sharing programs.
    Now I want to move to my prepared remarks that relate to 
child development, families, and pornography. I want to focus 
on three questions, and I will begin with these questions and a 
summary of my answers. Fuller answers can be found in my 
written testimony, as well as references to the relevant 
research that I am drawing on.
    First question, what effect does pornography in peer-to-
peer file sharing programs have on children's development? Let 
me give an example of such effects.
    One study found that 13-year-olds and 14-year olds became 
more accepting of pre-marital and extra-marital sex, after 
seeing sexual relations between unmarried, but not married, 
partners on video. This example shows one route by which 
pornography can affect the moral values of young teenagers.
    Equally important, use of pornography can be an important 
additional risk factor for sexual violence, when used heavily 
by boys already at risk for anti-social behavior.
    A study of long-term memories of impactful experiences with 
sexual media in college students indicates that inadvertent or 
unintentional exposure can be both frightening and disgusting 
to children and teens, especially girls.
    In sum, the evidence indicates that pornography and other 
sexualized media can influence sexual violence, sexual 
attitudes, moral values, and sexual activity of children and 
youth.
    Second question, what are the challenges parents face in 
reducing their children's access to pornography on peer-to-peer 
networks and elsewhere? We have already heard a lot about this.
    One important challenge that has been mentioned is the fact 
that these programs, originally developed for music, have 
recently become the most popular use of the Internet for pre-
teens and teens; occupying an average of 32 minutes a day, and 
that is an unselected, kind of middle class sample.
    These are the same peer-to-peer networks that can, of 
course, as we have heard, contain pornography and other 
materials. Such networks, however, are part of an all-pervasive 
sexualized media environment.
    This total environment leads to a tremendous amount of 
inadvertent and unintentional exposure of children and young 
people to pornography and other adults sexual media.
    For example, on peer-to-peer file sharing programs, banner 
ads provide a source of inadvertent exposure to what, for 
children and teens, could be precocious sexuality.
    You saw some screens up there, and they had kind of an 
innocuous banner as in the lower left hand corner, for example, 
for Nokia phones. But when I did my test, I found adds floating 
through for female condoms, male condoms, and introduction to 
potential sexual partners through personal ads.
    These banner adds, as you saw today, are viewed as soon as 
one enters the program. They cannot be controlled by the user. 
This inadvertent and unintentional exposure to sexualized media 
is a major challenge to parents.
    Third question; what are the non-technical means that 
parents can use to deal with these challenges? We have already 
heard some ideas from Mr. Rung.
    Let me add, a warm and communicative parent/child 
relationship is the most important weapon that parents have. 
Such a relationship, research has shown, reduces the sexual 
risktaking that can be stimulated by pornography.
    An open family communications style is another powerful 
weapon. For example, one study indicated that such a style 
mitigated the effects of video portrayals of non-marital sex on 
the moral judgments of 13 and 14 year-olds.
    Therefore, in today's media environment, an open 
communication style within the family is critical. In addition, 
open parent/child channels for communicating specifically about 
sexual and media experiences, that is very useful; second, sex 
education at home or school; and third, parental participation 
with children on the Internet; all of these are constructive 
influences that can mitigate negative effects of pornography.
    Finally, for boys already at risk for anti-social behavior, 
parent should carefully monitor and severely limit access to 
pornography on file sharing networks and elsewhere.
    Let me close by talking a little bit about some important 
issues in need of future research. Pornography on peer-to-peer 
file sharing networks is not unique, but it is part of a highly 
sexualized media environment. By analogy to television and 
violence research, one likely developmental outcome of over-
exposure to sexual media is desensitization. Another outcome is 
the culture of the body, especially for females.
    But how does desensitization affect the emerging sexuality 
of young people? What are the psychological costs and benefits 
of this body culture? What is the role of other media in these 
processes? All these are areas where we need further research, 
and there are many other questions.
    What type of experiences are children and young people 
having with sexual material on peer-to-peer file sharing 
networks? What are the long-term effects of these experiences? 
How do parents view the challenges of the sexually saturated 
media environment for child rearing and child development?
    What are the effects on children and families of different 
parental strategies vis-a-vis sexual and pornographic material 
on the Internet? These are important questions greatly in need 
of more research and more research funding; thank you very 
much.
    [The prepared statement of Dr. Greenfield follows:]
    [GRAPHIC] [TIFF OMITTED] 87066.047
    
    [GRAPHIC] [TIFF OMITTED] 87066.048
    
    [GRAPHIC] [TIFF OMITTED] 87066.049
    
    [GRAPHIC] [TIFF OMITTED] 87066.050
    
    [GRAPHIC] [TIFF OMITTED] 87066.051
    
    [GRAPHIC] [TIFF OMITTED] 87066.052
    
    [GRAPHIC] [TIFF OMITTED] 87066.053
    
    [GRAPHIC] [TIFF OMITTED] 87066.054
    
    [GRAPHIC] [TIFF OMITTED] 87066.055
    
    [GRAPHIC] [TIFF OMITTED] 87066.056
    
    [GRAPHIC] [TIFF OMITTED] 87066.057
    
    [GRAPHIC] [TIFF OMITTED] 87066.058
    
    [GRAPHIC] [TIFF OMITTED] 87066.059
    
    [GRAPHIC] [TIFF OMITTED] 87066.060
    
    Chairman Tom Davis. Dr. Greenfield, thank you very much. I 
am going to just ask one question, and then yield to Mr. Waxman 
and let other Members have a chance.
    Mr. Rung, thanks a lot for being here today. I think you 
can add a lot to this, just from your experience. But what is 
Grokster's business model? How do you end up making money in 
this?
    Mr. Rung. Basically, it is through advertising revenues. As 
a matter of fact, I was making a note, when Dr. Greenfield was 
speaking, about the fact that we do, in fact, have these banner 
ads flashing across the face of it, whether you like it or not 
as a user. I do intend to go back and review the subject 
matter.
    Chairman Tom Davis. So advertising is basically how you 
make your money?
    Mr. Rung. Yes, basically advertising, yes.
    Chairman Tom Davis. And you do not have any control over 
the content. People can then put anything in they want and 
trade back and forth.
    Mr. Rung. That is correct.
    Chairman Tom Davis. It is like a telephone company, almost.
    Mr. Rung. That would be a good analogy.
    Chairman Tom Davis. That is my first question.
    Mr. Waxman.
    Mr. Waxman. Thank you, Mr. Chairman; well, to followup on 
that, Mr. Rung, when people go on to Grokster or some of these 
other file sharing sites, and they want to download something 
about Britney Spears or the Olsen twins or Pokemon, why is it 
that they get this pornography?
    Mr. Rung. Because you are searching for basically a word; 
in other words, they are putting in, say, Britney Spears, and 
it searches not just the title, but also there are some tags 
attached to the files. The users can set those tags in a 
particular file, plus, they can mis-name files.
    Mr. Waxman. Well, is anybody making money out of this?
    Mr. Rung. Between the users themselves, not that I am aware 
of, unless the pornography industry perhaps is.
    Mr. Waxman. Well, is the pornography industry making any 
money?
    Mr. Rung. Well, overall, I believe yes, from what I read on 
the Internet; but as specifically related to file sharing, I 
really am not sure.
    Mr. Waxman. Well, can anybody on the panel tell us if the 
pornographers are making money by putting these pornographic 
files on the file sharing programs?
    Mr. Saaf. They are not directly making money, but a lot of 
pornography companies do put their files on the peer-to-peer 
network and mis-name it to try to gain exposure for the same 
purpose of advertising.
    Mr. Waxman. Mr. Rung, I have heard that there is almost 
like a frequent flyer program; if you use a file sharing more 
often, you get access to more files and speedier access. Is 
that accurate?
    Mr. Rung. Not that I am aware of; what you might be 
referring to is a new feature that KaZaA came out with, a few 
months back, where the more you share, in theory, the higher 
rank you are for downloading from other people. We do not have 
a feature like that on our program.
    Mr. Waxman. And why would they have a feature like that? 
Who benefits; does the file sharing operation benefit?
    Mr. Rung. I would assume that they would benefit, from the 
standpoint of the more the users used the program, the more ads 
that can be shown.
    Mr. Waxman. Ms. Koontz, the GAO did a report for us, and we 
very much appreciate it. A lot of what is going on in these 
file sharing programs is illegal pornography. What is the 
problem? Why can law enforcement not find out who is putting 
the pornography on the files and getting them to the kids, and 
crack down on it?
    Ms. Koontz. Well, I think, to a large extent, law 
enforcement has many, many efforts, and I am sure Mr. 
Netherland could add to this significantly.
    But law enforcement has many efforts to identify individual 
users, determine their identity, to prosecute them in courts; 
and I am sure that he could probably add to this quite a bit in 
terms of the some of the difficulties in doing this and some of 
the barriers that they face.
    Mr. Waxman. Well, maybe we ought to have him respond and 
give us some information on this point.
    Mr. Netherland. With respect to that, there are hundreds of 
thousands of images that exist on the Internet presently. As 
far as file sharing itself, it is just simply another vehicle 
by which these people can trade the material. With our Child 
Victim Identification Program, we are trying to quantify what 
the universe of images is out there, in hopes that we can 
locate these children that are being victimized; and also, when 
we run across a new image, we are going to hopefully be able to 
localize the source of that image, and back-track and locate 
the people that are, in fact, putting the stuff on the 
Internet.
    Of course, with today's technology, digital cameras and so 
on, it is very easy simply to snap a photo and have it on the 
Internet within a matter of moments.
    Mr. Waxman. What do the pornographers get out of doing 
this? How do they make money out of it?
    Mr. Netherland. The pedophiles, themselves, are gratified 
by the images. It arouses them sexually, and sometimes it 
ultimately leads to their actual molestation of a child. With 
respect to the people that are looking to make money on it, 
generally, they are, in fact, pedophiles, as well.
    As far as peer-to-peer is concerned, it is exposure to the 
images. They, in turn, can point these people back to Web sites 
and so on that, in fact, do make money from this trade.
    Mr. Waxman. Is it a failure of resources, insufficient 
resources; what is the barrier; or is it technological that 
keeps you from finding the people that are responsible?
    Mr. Netherland. Well, with respect to the CyberSmuggling 
Center, I have 13 people that are dedicated to the child 
exploitation effort at the CyberSmuggling Center.
    Now our agents out in the field are also trained to conduct 
these types of investigations. However, simply because of the 
enormous number of tips that we receive on a daily basis, our 
posture is primarily reactive in nature.
    Working peer-to-peer type cases is a proactive approach. I 
would like nothing more than to expand our efforts in that 
area, but we cannot ignore the massive number of tips that we 
are receiving already.
    Mr. Waxman. Thank you, Mr. Chairman.
    Mr. Shays [presiding]. I thank the gentleman. This is an 
amazing issue. Mrs. Miller.
    Mrs. Miller. Thank you, Mr. Chairman.
    I will tell you, my daughter is 27 years old, so we did not 
really have the Internet in our home with some of these things. 
You know, the Internet really is quite a relatively new 
phenomenon.
    I sit on a board in my county called Care House, which is 
for sexually abused children. It is unbelievable what people 
will do to their children.
    As we are talking today about child pornography, as well, 
my husband has been the presiding Circuit Court Judge in our 
county for the family law and, again, you see it all.
    When you do psychological profiles of these individuals, so 
often, pornography and access to pornography is a critical 
component to all of those kinds of things.
    So I am just wondering, we talked a little bit about the 
marketing. The unfortunate reality is, quite frankly, there is 
a market for these kinds of things.
    With teenagers today, how we can actually protect them from 
that? It seems to me as you see many of the law enforcement 
agencies who are having new Internet crime units, and I know we 
see that in my region and I am sure throughout the Nation as 
well, they are having some success with these things.
    But I think it is difficult for us sometimes to legislate, 
because it seems as though the moment you pass a piece of 
legislation, the techies have out-thought you, again. So I 
guess I am looking a little bit more for specific 
recommendations on what you might think the Federal Government 
could actually do to assist in this regard.
    Mr. Saaf. I think that local city government officials 
should take a more active stance on this approach. I am not 
sure that there is a broad sweeping Federal solution to this. 
But there are a lot of existing child pornography laws that are 
not being enforced by District Attorneys across the Nation.
    I think that is really the first step, that it has to start 
at that level, and then we will see where it goes from there.
    Mrs. Miller. Thank you.
    Mr. Shays. Thank you; Ms. Ruppersberger.
    Mr. Ruppersberger. Thank you, Mr. Chairman.
    First thing, you wonder if we will be able to stay ahead of 
the technology to provide filters or for parental-type of 
controls.
    But the issue is, whose obligation is it, in your opinion, 
to prevent the children from seeing this porn? Is it the 
software developers; is it the parent? Do you have an opinion 
on the obligation?
    Because we have really allowed the industry to police 
itself for a long time, and there have been some positives and 
negatives. This is a time, I think, when the industry has not 
really stepped up. Does anybody want to take that question? Mr. 
Rung.
    Mr. Rung. As it was pointed out, the technology can change 
so quickly, that I think just outlawing this, or trying to 
regulate this, that, or the other thing, the technology would 
outgrow it almost immediately.
    I really believe honestly that it is the parents that are 
the primary ones that are in the hot seat and have to, again, 
monitor their children's usage and monitor what goes on the 
computer.
    Mr. Ruppersberger. But do you not think the industry is 
better suited to come up with the evolving technology? I mean, 
there are a lot of parents that just cannot stay there at all 
times with their children.
    There have to be some safeguards. There has to be, I think, 
an emphasis from the industry itself to help address this 
problem. I mean, law enforcement has to be involved. A lot of 
people have to be involved. Because if the industry does not 
step up, eventually Government will have to step up, and we 
will have to mandate.
    Let me ask you this. Do you feel that the Government should 
mandate filters for the peer-to-peer networks? I know Dr. 
Greenfield does. Do you?
    Mr. Rung. To be quite honest, personally, I am against a 
lot of Government regulation in any case. But that would seem 
like, if you were going to do some regulation, that might be a 
worthwhile way to go about it.
    Mr. Ruppersberger. And if we do this and the technology 
keeps changing, there it gets back to the obligation end of the 
industry.
    Another issue, too, as far as law enforcement is concerned, 
you mentioned the issue of local law enforcement. Whenever 
there is a problem with crime and there is a magnitude, I think 
it is very important for the Federal, State, and local 
governments to work closely together.
    It seems that a lot of information leads come from local 
government, because that is where the every day operations is, 
that is what is happening in the street, in the communities.
    What type of effort is evolving now to deal with this issue 
with respect to Federal, State, and local government? The 
prosecutor is the end. It needs to really be developed to 
obtain the information, get the intelligence, make the arrest, 
and then go to court and prosecute.
    Mr. Netherland. With respect to cooperative efforts, this 
particular area of crime is one area where we, law enforcement, 
work very, very well together. Both Federal, State, local law 
enforcement, as well as our international partners, are 
dedicated to this effort. We put aside our differences when we 
work these type cases.
    The Internet Crimes Against Children Task Forces that exist 
out there, I think there are 36, I believe, now. They are 
comprised of Federal, State, and local law enforcement 
officers, and are one step in the right direction.
    On the international level, we work very well with Interpol 
in France, as far as educating other countries on how to 
conduct these types of investigations. But right now, about 99 
percent of this type of work is facilitated, quite frankly, by 
the Internet.
    And if I could make one comment about the peer-to-peer file 
sharing filters and so on, that is certainly very important. I 
am a father, as well, and it is very important. It is a very 
important thing and we, as parents, have an obligation to take 
care of our children, and filter what they look at.
    But keep in mind that this is still a vehicle by which 
these pedophiles can trade between themselves which, in turn, 
satisfies or arouses them, which ultimately and directly leads 
them to finding these children that are on the Internet and 
other areas, such as chatrooms and so on.
    Mr. Ruppersberger. I have one last question for Mr. Rung, 
again. I do not mean to keep picking on you, but you are the 
industry, I guess.
    Have you or anyone that you are aware of in the industry 
contacted law enforcement agencies to try to work with them to 
try to identify where these problems exist?
    Mr. Rung. All I can speak to is what Grokster's experience 
is. We have corroborated in the past on some cases with law 
enforcement, and anticipate doing so in the future.
    Mr. Ruppersberger. But I am talking about taking the 
initiative. I am not talking about just cooperating when they 
come to you. Are you aware of the industry taking the 
initiative, when you have identified these problems, to help 
law enforcement?
    Mr. Rung. I do not believe there is any industry-wide. That 
is certainly a good idea.
    Mr. Ruppersberger. It is something that I think the 
industry needs to look at; because, if not, then Government 
will probably have to come in and mandate to deal with this 
serious problem. Thank you.
    Mr. Netherland. Thank you.
    Chairman Tom Davis [presiding]. Thank you very much.
    Mr. Janklow.
    Mr. Janklow. Thank you very much.
    Mr. Rung, if I could just continue for a moment, you 
corroborate, and I do not mean to say this in an accusatory 
way. I sound that way sometimes, but it is just the way I talk. 
I do not mean it that way.
    You corroborate, but in your testimony, you say it is 
estimated that 50 percent of the files on files traded on 
sharing programs are pornographic, and you operate a file 
sharing program.
    Now do you really feel your only responsibility is just to 
cooperate when you are contacted? For all practical purposes, 
you are the pornographer, when it comes to these types of 
things. You are the vehicle by which people are doing these 
things, and you cannot have Government shutting down everything 
and regulating everything all the time.
    Do you feel there is a greater responsibility on the 
industry to step forward with something that is this obvious in 
preying against children?
    Mr. Rung. Let me address that two ways, if I could. The 
first is that the extent of the pornography on file sharing is 
just a sub-set of what is available on the Internet, as a 
whole, just as you pointed out.
    Mr. Janklow. And I am going to get to that in just a 
second.
    Mr. Rung. Oh, OK, and so accordingly, it is there and it 
exists.
    Mr. Janklow. Right.
    Mr. Rung. But the one thing that has occurred, this has 
been a learning experience for me, also, to be invited here and 
to listen to everybody here.
    It is quite clear to me that it would make a lot of sense 
for me to go back to my fellow entrepreneurs in our industry, 
and see what we can, in fact, do on a pro-active basis.
    Mr. Janklow. Does it take a congressional hearing to let 
you know there is problem of this magnitude?
    Mr. Rung. Of this magnitude, yes, particularly with the 
child pornography.
    Mr. Janklow. Sir, you brought up another point. The mis-
spelling of words is not a file sharing issue. But everybody 
wants to say ``parental involvement.'' This is one where it 
cannot be just the parents, primarily. Kids go to school. We 
all bust our tails to make sure our schools have more computers 
all the time for the kids.
    We have community libraries that have computers. Kids go to 
their neighbors' houses, where there are computers. They go to 
church, where there are computers, and boys and girls centers, 
where there are computers. So it is not just a matter of 
dealing with their parents.
    If the University of New Hampshire's study is accurate, 
only 10 percent of the students that are hit on, on the 
Internet, tell their parents about it.
    Even though you have a warm, fuzzy relationship with your 
parents, you may be bashful or embarrassed with this bestiality 
that you see, the sodomy that you see.
    You know exactly what I am talking about. You can misspell 
words and get it. You can innocently stumble into, like, we all 
say, whitehouse.com is a good example of that.
    But my question is, sir, what do you think it is going to 
take to better protect the children of the world, recognizing 
that we cannot just pass laws in America? A lot of these sites 
come from outside the United States. They are just as easy to 
come from Bulgaria or Romania, as they are South Dakota or 
Timbuctoo, AR.
    Mr. Rung. I honestly have no solution to that.
    Mr. Janklow. Mr. Netherland, how about you? Do you agree 
there is not enough money in the world, just to prosecute, 
after these children are exposed to this type of thing; that we 
have to really do something at the front end, and your 
organization is just dealing with our failure as a society to 
deal with it on the front end?
    Mr. Netherland. As far as law enforcement is concerned, I 
welcome any strengthening of the laws that help us do our job 
better, and that would remove these people from doing what they 
do.
    Mr. Janklow. Sir, is your agency involved in the Justice 
Department funding of those Internet Crimes Against Children 
Programs?
    Mr. Netherland. We have an advisory role with respect to 
the Internet Crimes Against Children Task Forces.
    Mr. Janklow. Do you know of any reason; is it a shortage of 
money; what is it that has prevented all 50 States and the 
territories from getting funding to get these things launched?
    My State happened to have been the first Statewide program. 
We were lucky to get in on the funding. But what does it take? 
Is it a funding issue, to make sure that every Government has 
the opportunity to get together to do this?
    Mr. Netherland. I believe that it would certainly help, in 
terms of making sure that every single State has an Internet 
Crimes Against Children Task Force, and organizes one. Because 
this is across the Nation; it is across the globe.
    Mr. Janklow. And sir, I will say that this is one of those 
issues where the Federal Government, the Federal prosecutors 
have truly stepped up to the plate, and have really dealt with 
it, when the evidence is turned over to them with respect to 
these predators.
    I have one other question for Ms. Koontz. What is it that 
you think that Congress can do, if anything, to really try and 
assist in shutting this off?
    When I was a kid, it was National Geographic. But that is a 
lot different than what is going on out there today. These 
sites have a huge impression on 8, 9, 10, and 11 year olds; a 
huge impression.
    Unfortunately, we did not put that kind of thing up today, 
and I guess my time is up. But could you tell me, do you know 
of anything that we could do?
    Ms. Koontz. This is not the kind of problem, I think, that 
lends itself to sort of a single legislative solution. I think, 
though, it needs to be a combination of efforts.
    First and foremost, law enforcement needs to continue to 
followup on the tips that they receive in this area, and they 
need to have the resources in order to further investigate 
those.
    This is a very growing area. The tips in the peer-to-peer 
networking area increased fourfold in 1 year. So you can tell 
this is very much on the rise.
    But the reality of it is, I think in addition to what law 
enforcement and public policy could do, is some of the things 
that other people on the panel have mentioned.
    Those are educational strategies for our kids. It is 
parental involvement and supervision, and although they are 
generally imperfect, technology-based tools, such as the ones 
Dr. Greenfield mentioned that are actually on KaZaA, can be a 
legitimate part of an overall strategy for dealing with this.
    Mr. Janklow. Thank you.
    Chairman Tom Davis. Thank you very much.
    Mr. Putnam.
    Mr. Putnam. Thank you, Mr. Chairman.
    I share Governor Janklow's frustration about this, and 
particularly, really, the inability for anybody to get their 
arms around a solution.
    I had a constituent of mine, who was a young woman, who 
experienced the same thing. She wandered off onto the Internet. 
She met someone and was lured away to Greece. She was severely 
molested for a period of several months, before anyone could 
track her down.
    The local law enforcement received almost no help from the 
Federal Government. The FBI was not interested. No one was 
interested until they finally managed to find a postcard that 
he had mailed her, and a Postal Inspector was the only Federal 
law enforcement help they got.
    We have a rating system for video games. We have a rating 
system for movies. We have a rating system for music, and the 
panels consensus is that people who deliberately set up Web 
sites to prey on spelling errors of third graders looking at 
Pokemon is not something that we can have the collective wisdom 
or will to solve. I have a problem with that. I think that 
there is a way that we can get around that.
    But I want to know a couple of things. First of all, 
because of what was mentioned about the resort in Acapulco, how 
much of this is generated domestically versus internationally? 
Is there a list maintained by the State Department, or someone 
of nations who continue to prey on children, and whose legal 
system does not allow us to get the information or the help 
that we need to prosecute these folks?
    The chairman and Mr. Waxman put out a helpful handout for 
parents. But the question I would ask the panel is, for the 
``do-good parent'' whose child brings some of these things to 
their attention, and they scan down, and you see all of these 
terms: co-ed, teen, young girl, cheerleader, all things that 
clearly indicate a minor, at what point does it go from smut to 
being illegal smut?
    How does the average parent know what they can report, and 
what things are just in bad taste but do not cross the line of 
illegality? So those are a handful of questions. I will leave 
it to the panel to decide who is most appropriate to answer.
    Mr. Netherland. With respect to the case in Acapulco, and 
also the case with Operation Hamlet, the Bureau of Immigration 
Customs Enforcement approaches things on an international 
level. We look at material that is crossing the borders into 
the United States. Unfortunately, the United States is the 
largest consumer of this type of material. I think that is a 
well known fact.
    Mr. Putnam. Who is the largest producer? Is that the United 
States, also?
    Mr. Netherland. In my opinion, there is a lot of material 
that is produced in the United States. But I believe there are 
many countries out there who, because of their laws, do not 
outlaw the possession of child pornography, or large producers; 
Russia, for instance.
    I know that they are taking steps to address that issue, 
and we work closely with the Russian authorities on 
investigations. But it is a function of their laws, trying to 
deal with the problem, themselves. In South America, some of 
the countries here also have some issues.
    Mr. Putnam. Help me understand this. Let us stop right 
there, because I guess I gave everybody too much to chew on. 
Help me understand what is against the law. At what point is 
changing the ``e'' to an ``a'' in Britney, and putting up 
pictures of children engaged in sexual acts against the law?
    At what point is changing Pokemon or Schwinn bicycles or 
whatever for the specific purpose of bringing in young children 
to this realm against the law; MediaDefender?
    Mr. Saaf. Well, that is kind of big opinion question 
because, you know, if something gets thrown up on the peer-to-
peer network and it is given a name, the person in the image 
might look 16. They might be 19.
    It is impossible to know, because these are just digital 
replications that have occurred millions of times over on the 
network, and you do not know where it started from. So who is 
to say if it is against the law or not? That is the real 
difficulty of peer-to-peer networking.
    Mr. Putnam. Mr. Rung.
    Mr. Rung. I am not sure. I was interested to hear the 
actual answer to that myself. Because I am not sure of what the 
legal definition of what is considered child pornography or not 
is. I mean, obviously, if you have a 6-year-old girl in an 
image, then that is a potential problem. So I am actually quite 
interested in the answer, myself.
    Mr. Putnam. So advertising hot high school cheerleader 
coeds, currently there is no law against that, if the image is 
actually someone over the age of 18?
    Mr. Netherland. That is correct.
    Mr. Putnam. And there is no trademark or copyright 
protection because of the fact that it is misspelled. But there 
is also no intent; there are no conspiracy laws that would 
apply to that.
    I mean, Mr. Waxman has made a career out of the intent or 
the conspiracy of advertising of certain products in this 
country. I find it hard to believe that you could not 
extrapolate that type of a legal argument to include changing 
the spelling of Pokemon to lure children into child 
pornography. Is there no remedy there, either; Ms. Koontz?
    Ms. Koontz. I guess what I would add here is that it is not 
necessary for the user to misspell Pokemon or Britney, or any 
of the rest of them to have pornography and child pornography 
return to your computer.
    It is not so much of an issue of, shall we say, the mis-
labeling of files. It is much more a function of the types of 
files being kept by individual users, who now have the 
capacity, through the file sharing applications to locate and 
interact with each other directly. These are individuals who 
are doing this, and they are just sharing what they possess on 
their hard drives.
    Chairman Tom Davis. Thank you.
    Ms. Greenfield. Could I say something about that? Just to 
add to that, a lot of it, therefore, is what young people 
themselves have downloaded. It is not just outsiders preying on 
kids. It is also what kids are creating for themselves. So that 
is a very, very important part of the problem, which needs to 
be also addressed.
    Chairman Tom Davis. Thank you; Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman; Mr. Chairman, I would 
like to yield to Congressman Waxman, who has a question.
    Mr. Waxman. I thank you for yielding, because I want to 
followup on the points that have just been raised. It is 
difficult to find out what criminal laws are broken. But one 
key thing would be to find the end user.
    And if MediaDefender can identify the IP address of people 
offering child porn, why has anyone not asked the ISP to turn 
over the names of the end users? Is that impossible to do, for 
any reason?
    Mr. Saaf. Well, MediaDefenders tried to encourage law 
enforcement officials, and we have had very low success. There 
have been a few District Attorneys around the country that have 
taken interest in this.
    I have a list right here that I collected over 2 days, of 
300,000 IPs that I believe have something to do with child 
pornography, at least by their facial terminology, and I would 
be happy to turn that over, but who do I turn it over to? I 
really do not know.
    Mr. Netherland. I can say that with respect to tracking 
these individuals back to the person opposed to damages, the 
files, and I will not discuss exactly what our techniques are, 
but we have a means by which we can backtrack and locate those 
individuals.
    We do, in fact, do that. We look for persons who are 
posting multiple files, hundreds of images. So we do have a 
means to do that.
    Mr. Waxman. Do you get the cooperation of the ISP, Internet 
Service Provider, to do that?
    Mr. Netherland. Yes, sir, we do.
    Mr. Waxman. And there is a problem in getting their 
cooperation?
    Mr. Netherland. Correct; the point here is that in these 
type applications, there is no centralized location; there is 
no centralized ISP that can report this.
    This particular network is simply, each desktop computer, 
in and of itself, is a server. So you have to locate the end 
user or the poster, in order to shut it down.
    Mr. Waxman. Thank you; I thank the gentleman for yielding, 
because that was a point I thought we would need to clarify.
    Mr. Tierney. Thank you; I yield back the balance of my 
time.
    Chairman Tom Davis. Thank you very much; Mr. Shays.
    Mr. Shays. Thank you, Mr. Chairman; Mr. Chairman, thank you 
for having these hearings. Mr. Waxman, thank you for the good 
work you and your staff have done on this, as well.
    This may sound a little crazy, but bear with me a second. I 
want quick answers, and I want to go all the way down the line. 
Ms. Koontz, I want to know who are the bad guys.
    Ms. Koontz. The pornographers.
    Mr. Shays. I want you to be a little bit more specific; 
just the pornographers?
    Ms. Koontz. Yes.
    Mr. Shays. Mr. Netherland.
    Mr. Netherland. I believe the pedophile drives the market. 
They drive the market. They are the ones preying on our 
children, and they use whatever vehicle they have by which to 
do so.
    Mr. Shays. Well, I think there are two kinds of bad guys 
with regard to peer-to-peer networks. There is the original 
pedophile, who creates the information and originally posts it 
to the network. That guy is the bad guy.
    But let us face it, there is a huge demand; 300,000 people 
is a huge group of people. That means there is a lot of mid-
level, borderline pedophiles, who have a fleeting interest in 
this stuff enough to download it and maybe even accidently re-
share it.
    So I do not know if you want to necessarily put that in the 
same moral evil as the guy who originally creates this stuff, 
but it is definitely a lot of people. Probably you would be 
surprised. I mean, clearly, there is a bunch of people in the 
Government who are the bad guys, to some degree.
    Mr. Shays. And in the sense of the Government, quickly, who 
would that be?
    Mr. Netherland. Well, like I said, NASA, Department of 
Defense, Los Alamos National Laboratory. I could give you 
another couple hundred computers that are all tracked down. You 
could identify every one of those computers to an owner of that 
computer, someone that works at the Government, who has a file 
that appears to be child pornography.
    Mr. Shays. Mr. Rung.
    Mr. Rung. I would say the creators of the child porn and 
the consumers of the child porn.
    Mr. Shays. A little louder, please; the creators of child 
porn and who else?
    Mr. Rung. The creators of the child porn and the people 
that consumer it. That would be the people that download it.
    Mr. Shays. Would you consider yourself one of the bad guys?
    Mr. Rung. No, I do not believe so.
    Mr. Shays. Dr. Greenfield.
    Ms. Greenfield. That is a very hard question. But I think I 
would probably go with Mr. Rung's answer.
    Mr. Shays. Would any of you consider Mr. Rung one of the 
bad guys?
    Ms. Greenfield. Well, I feel like we should not pick out 
peer file sharing; that this is a problem throughout society. 
It is a problem on television. It is a problem throughout the 
Internet. It is a problem when you go now to checkout at the 
supermarket, with what used to be very innocent women's 
magazines. The banner headlines all over the covers now are all 
about sex.
    So I think that throughout society, and I could even get 
closer to home, there has been a highly sexualized environment, 
and that is a problem. But I do not really see one bad guy.
    Mr. Shays. Mr. Rung, I am starting from the bottom here, 
just to try to understand something. In your terms of 
agreement, you prohibit the use of your service in transmitting 
any content that is ``unlawful, harmful, threatening, abusive, 
vulgar, obscene, or otherwise objectionable.'' But is that not 
kind of a joke?
    Mr. Rung. If you mean from the standpoint, is it 
enforceable by anything that we can do? That is correct, we 
cannot enforce that.
    Mr. Shays. So what do those words mean to us? I mean, are 
they to protect yourself from legal action? What is the purpose 
of your terms of agreement?
    Mr. Rung. I think it is two-fold. One is to provide 
protection; let us be honest. But the second is to put our 
users on notice that this not the type of activity that you 
should engage in, with the product that we provide.
    Mr. Shays. How much of your income would you say is 
attributed to the very topic that we are discussing now? By the 
way, I appreciate your honesty. You are helping me understand 
this issue better than most people have. So it is good you are 
here and thank you. I am just trying to understand it. But how 
much of your income would it be?
    Mr. Rung. No, that is fine and I appreciate that. I have 
learned a lot coming here too and, as a matter of fact, I would 
like to spend a little time with Mr. Netherlands after the 
meeting.
    Mr. Shays. Thank you.
    Mr. Rung. But again, I really do not know the percentage of 
child porn that goes through by the users. But I believe it is 
relatively small, compared to the universe of files that are 
shared.
    Mr. Shays. Would you come back to the committee and give us 
a more specific answer to the question of how much of your 
income you believe is the result of stuff like what we are 
talking about?
    Mr. Rung. Yes.
    Ms. Greenfield. One thing I think could be done by the 
companies themselves would be not to sell banner ads for things 
like condoms. Because those are under their control, and they 
are something that children or anybody else cannot avoid when 
they come onto the site.
    Mr. Shays. Thank you, Mr. Chairman, and thank you.
    Chairman Tom Davis. Are there any other questions; Mr. Van 
Hollen.
    Mr. Van Hollen. No, and Mr. Chairman, I want to thank you 
for holding this hearing. I am still trying to master the art 
of being in two places at one time. I was at another committee 
hearing.
    I want to thank Congressman Waxman and his staff for what 
they have done. As the father of three children 12 and under, 
this is something that I have a great interest in.
    I have been looking through some of the recommendations. 
One of the big frustrations, of course, is trying to come up 
with concrete measures we can take. Obviously, education, and 
public education, and making sure parents are alert is a 
critical part of this.
    But I am going to look through this to see if you have any 
other specific recommendation. Law enforcement is a key part. 
But are there other tools we can use, and I realize how 
difficult it is in the Internet age, to keep these kind of 
things from popping up when you put in ``Pokemon.'' It is 
incredible, and as much as we monitor our kids, it is 
impossible to be there 24 hours a day, standing in front of the 
computer.
    But I look forward to reviewing some of the recommendations 
and hearing more about this. Thank you.
    Chairman Tom Davis. Thank you very much; and Mr. Waxman, 
let me thank your staff, too, for helping in calling this to 
our attention and doing the work on this. I think this was a 
very useful hearing.
    I want to thank all of our witnesses for attending. I think 
for Members, we have learned a lot today, and we will go back 
and probably re-visit the issue. If any other thoughts occur to 
you, please feel free to let the committee know, and we will be 
happy to put it in the public record.
    We will be posting on our Web site a list of the top 10 
things a parent can do to limit their children's exposure to 
pornography on peer-to-peer file sharing networks, compiled by 
Mr. Waxman's staff and mine, and we will also be following-up 
on this issue.
    In addition to the pornography problems, file sharing 
programs raise serious security and privacy issues, as users 
may unknowingly share personal files, or may accidently 
download files computer viruses.
    Thank you very much. The hearing is adjourned.
    [Whereupon, at 11:40 a.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
    [Additional information submitted for the hearing record 
follows:]
[GRAPHIC] [TIFF OMITTED] 87066.061

[GRAPHIC] [TIFF OMITTED] 87066.062

[GRAPHIC] [TIFF OMITTED] 87066.063

[GRAPHIC] [TIFF OMITTED] 87066.064

[GRAPHIC] [TIFF OMITTED] 87066.065

[GRAPHIC] [TIFF OMITTED] 87066.066

[GRAPHIC] [TIFF OMITTED] 87066.067

[GRAPHIC] [TIFF OMITTED] 87066.068

[GRAPHIC] [TIFF OMITTED] 87066.069

[GRAPHIC] [TIFF OMITTED] 87066.070

[GRAPHIC] [TIFF OMITTED] 87066.071

[GRAPHIC] [TIFF OMITTED] 87066.072

[GRAPHIC] [TIFF OMITTED] 87066.073

[GRAPHIC] [TIFF OMITTED] 87066.074

[GRAPHIC] [TIFF OMITTED] 87066.075

[GRAPHIC] [TIFF OMITTED] 87066.076

[GRAPHIC] [TIFF OMITTED] 87066.077

[GRAPHIC] [TIFF OMITTED] 87066.078

[GRAPHIC] [TIFF OMITTED] 87066.079

[GRAPHIC] [TIFF OMITTED] 87066.080

[GRAPHIC] [TIFF OMITTED] 87066.081

[GRAPHIC] [TIFF OMITTED] 87066.082

[GRAPHIC] [TIFF OMITTED] 87066.083

                                   - 

</pre></body></html>
